wAAi___ o> ? -■ -

IN THE
SUPREME COURT OF THE UNITED STATES

PAUL SALAZAR

PETITIONER

(Your Name)
:

1
VS.

THE STATE OF TEXAS

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED

JAN I 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S. _|

COURT OF CRIMINAL APPEALS OF TEXAS________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Paul Salazar
(Your Name)
TDCO # 2103B47
Hughes Unit
(Address)
Rt. 2, Box 4400
Gatesvile, TX 76597
(City, State, Zip Code)
n/a

(Phone Number),

QUESTION(S) PRESENTED

?.?aun
GROUND ONE:

DOES A STATE'S INITIAL-REVIEW PDST-CONVICTIDN
COLLATERAL PROCEDURES MEET CONSTITUTIONAL STANDARDS
WHEN THOSE PROCEDURES FAIL TO PROVIDE PRISONERS
THE OPPORTUNITY TO GATHER, PRESENT, AND CONSIDERATION
OF EVIDENCE IN SUPPORT OF AN INEFFECTIVE ASSISTANCE
OF COUNSEL AT TRIAL CLAIM, FOR WHICH THE INITIAL-REVIEW
COLLATERAL PROCEEDINGS WAS THE FIRST MENAINGFUL
OPPORTUNITY TO RAISE AN INEFFECTIVE ASSISTANCE OFF
COUNSEL AT TRIAL CLAIM?

GROUND TWO:

WAS SALAZAR'S TRIAL COUNSELS INEFFECTIVE DURING VOIR
DIRE AND IN FAILING TO OBOECT TO THE CONVICTION AND
SENTENCE FOR COUNT II ON DOUBLE OEOPARDY GROUNDS; AND,
SHOULD THIS COURT'S DECISIONS RELATED TO TRIAL COUNSEL'S
DUTY TO INVESTIGATE (i.e. WIGGINS) APPLY TO COUNSEL'S
FAILURE TO SUFFICIENTLY QUESTION PROSPECTIVE OURORS
DURING VOIR DIRE?

LIST OF PARTIES

[ fj'AIl parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Salazar v. Lumpkin, No. 5 ;1 9-cv-OI 489-FB (Id . D . Tex.Nov.
Dkt. No. B (STAY OF PROCEEDINGS GRANTED)

5,

2020),

** A substantially similar Petition for Writ of Certorari mas filed
in Charles Lee Mosier, Sr. v. Texas in this Court * * -tt

TABLE OF CONTENTS
OPINIONS BELOW

1

BURISEffiCITION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-1 7

REASONS FOR GRANTING THE WRIT

1 B-40

GROUND ONE::

1 8-34

DUE PROCESS

Salazar's Requests For Relevant Eviderlce (and
Consideration Thereof)

19-22

Gathering ans Submitting Evidence Necessary
Part of Proceddiego

22-23

More Limited Question Than Prior Certorari's Granted 23-26
No Other Federal Remedy

26

Salazar's Requests Were Ignored

26-31

Due Process Applies

31-33

Conclusion

No Perfect Vechicle

QROUND TWO:

INEFFECTIVE ASSISTANCE OF COUNSEL!

33-34
34-39
40

CONCLUSION
PROOF OF SERVICE
DECLARATION OF MAILING TO THE COURT
INDEX OF APPENDICES
APPENDIX A

TEXAS COURT OF CRIMINAL APPEALS ! SUMMARY DENIAL
(Nd. WR-90,899-02 / Oct. 14, 2020)

APPENDIX B

144th District Court of Bexar County,.Texas's
Findings of Fact and Conclusionsaof Lam
No. 2014-CR-5303-W1

APPENDIX C

4th District Court of Appeals of Texas
Opinoin on Direct Appeal
No. 04-16-00743-CR

APPENDIX D

TEXAS COURT OF CRIMINAL APPEALS i SUMMARY DENIAL
0f Motion to STAY and Motion to Supplement the
Writ Record
(No. WR-90,899-02 / Ouly 23, 2020)
1

i

Memorandum

APPENDIX E

TEXAS COURT OFDCRIMINAL APPEALS1' SUMMARY DENIAL
□f Motion to Address Procedural DUE PROCESS Concerns
Common in PROOSE Cases (from mandamus case)
(No. UR-90,899-01
/ August 21, 2020)

APPENDIX F

EXTENDED STATUTORY PROVISIONS
Art. 11.07, Texas Code of Criminal Procedure
Rule 73, Texas Rules of Appelates Procedure

TABLE OF AUTHORITIES CITED
PAGE
Aekins v. Stgt§« 447 S . UJ. 3 d 270 ( Tex . Crim . App . 201 4 )

38,39

Atkins v. Clark,

26

Ballinger v.

642 F.3d 47 (1st Cir.

Precesnike,

Black v. Workman,

709 F.3 d 558

2011)
( 6th Cir.

682 F,3d 880 (10th Cir.

Boumediene v . Bush, 553 U.S.

2015)

26
26

2012)

22

723 (2008)

Burt v. Titlou, 134 S.Ct. 10 (2013)

21

Case v. Nebraska,

22,24

381

U.S. 336 (1965)

Coleman v. Thompson, 501

U.S.

25,31

722 (1991)

Ex parte Emprey, 757 S.U.2d 771

(Tex.Crim.App.

)

Evitts v. Lucey, 469 U.S. 387 (1985)
Ford v. Wainuright,

477 U.S.

399 (1986)

Gibson v. Jackson, 578 F.2d 1045 (5th Cir. 1978)
Guzman v.,State,

591

33
25,31
23,25,32
26

S.W.3d 713 (Tex.App. -0Houston [1st Dist]2019)

Halbert v. Michigan, 545 U.S. 605 (2005)

25

Harrington v. Richter,

24,35

564 U.S. 86 (2012)

Hicks v. Oklahoma, 447 U.S.

343 (1979)

Johnson v. Mississippi, 486 U.S.
Kyles v. Whitely, 498 U.S. 931

578 (1988)

(1990)

Martinez v. Ryan, 132 S.Ct. 1309 (2012)

31
25
24
1 6,1 B ,1 9,23,24,32

Matthews v. Eldrige, 424 U.S. 319 (1976)

32

Medina v. California,

31

505 U.S. 437 (1992)

Montgomery v. Louisiana, 136 S.Ct. 718 (2016)

25

Morgan v. Illinois, 112 S.Ct. 2222 (1992)

37

State v. Morales, 253 S.W.3d 686 (Tex.Crim.App.2008)

36

Morris v. Cain, 1B6 F.3d 581

26

D . A . Offcie v.

(5th Cir. 1999)

Osboine, 129 S.Ct. 2308 (2009)

39

1 7,25 , 31

Panetti v.

23,31

Quarterman, 127 S.Ct. 2842 (2007)

Cullen v. Pinholster, 131

S.Ct. 1318 (2011)

19,23,24

Ex parte Pruitt, 233 S.W.3d 338 ( Te x . Cr im . App . 2 0 0 7 )

38

Sully v. Ayers,

725 F.3d 1057 (9th Cir. 2018)

26

Swart a. Cooke,

562 U.S. 216 (2011)

25

Ex parte Torres, 943 S.W.2d 469 (Tex.Crim.App.1997)

1 8

Trevino v. Thaler, 133 S.Ct. 1911

18,19,24,32

(2013)

Valle v. Florida, 654 F.3d 1266 (11th Cir. 2011)

26

yillareal a . State,

39

Virgil v. Dretke,

590 S . W . 3 d 75 (Tex.App.

446 F.3d 598 (5th Cir.

Walker v. State, 195 S.W.3d 251

Waco 2019)

2006)

(Tex.App.

San Aaibonio 2006 )

30,36
35-36

Welch v. Beto, 325 F.2d 1016 (5th Cir. 1966)

31

Wiggins v. Smith,

37

539 U.S. 510 (2003)

Williams v. Taylor, 529 U.S.

362 (2000)
(1 946)

24

648 F. 3d 129 (2nd Cir. 2011)

26

Woods v. Nierstheimer, 328 U.S. 21 1
Word v. Lord,

35

Yates v. Aiken, 484 U.S. 211

(1988)

25

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[L^For"

cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[uH§ unpublished.

1W
^
The opinion of the---------------appears at Appendix (3 to the petition and is

of'

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[>~Kis unpublished.
1.

to

1

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ----------------:-----------------[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at. Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No. ----A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[4"Tor cases from state courts:
The date on which the highest state court decided my case was Oar /y.t ckJAo.
A copy of that decision appears at Appendix —A---[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition, for a writ of certiorari was granted
(date) on ---------------------- (date) in
to and including------Application No. '—A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution,

5th Amendment:-

"No person shall... be subject for the same offence to
be twice put in jeopardy of life or limb; ... nor be deprived
of life, liberty, or property, without due process of law ...

U.S. Consitution, 6th Amendment:
"In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury
of the State and the district wherein the crime shall have
been committed ... and to have the Assistance of Counsel for
his defense."
U.S. Constitution 114th Amendment:
"... No State shall ... deprive any psfgon of life,
or property, wi-frijout due process of law ..."

liberty,

APPENDIX "F" contains Article 11.07 of the Texas Code of Criminal
Procedure and Rule 73 of the Texas Rules of Appellate Procedure

STATEMENT OF THE CASE

1 .

The Petitioner, Paul Salazar, was charged in the 144th

District Court of Bexar County, Texas with continuous sexual abuse
of a child.

The allegations were that Salazar sexually abused his

daughter, D.S.
2.

1

D.S. could only "provide details about the first inciderit,

when she was in first grade[ and] could not provide details about
the latter other incidents."

Rather, when D.S. reported and testified

about other allegations, she referred to "other indidents," ^Chat
would happen", ^hose things would happen

or simply that Salazatr

had "molested" her, spread over different time periods and different
locations.

Yet, those so-called "other incidents" included just

kissing, touching the buttucks, and picture taking; and D.S. often
used general terms, such as,

"molested','1,1 felt "uncomfortable," and

"do stuff," to describe all the allegations. 3 RR 65-66 (moledted,
last time), 132 (same), 152 (last time just kiss), 156-157 (same),
4 RR 14 (focus was fic&t time), 19-20 (same), 24 (same), 42 (told
SANE molested,

"do stuff", and hurt), 75-79 (felt "uncomfortable,"

grabbed butt), 94 ("Its happen I think twice

... first time ...

[then] his house ... but be did it differently .. he took pictures"),
97 (gabbed butt hurt).
3.

Nevertheless, Salazar was charged by indictment with two

separate counts.

ac­

count I alleged teeMs Salazar, pursuant to Texas

Penal Code § 21.02, during a period that was 30 or more days in
duration, committed two or more enumerated acts of sexual abuse
1
The facts and quotes come from the State appellate court's Opinion
on direct appeal, unless otherwise noted. See, Salazar v. State,
No. 04-16-00743-CR (Tex. App. San Antonio October 11, 2017)(available
at http://www.txcourts.gov/4thcoa/) and APPENDIK "C".

against D.S.

Specifically, that Salazar penetrated D.S.'s mouth,

sexual organ,

and anus with Salazar's sexual organ a-eki three acts

cu\4

of sexual contact: Salazr touched D.S.'s gentials, caused D.S. to
touch part of Salazar's genitals, and Salazar touched D.S.'s anus.
Count II alleged that Salazar also exposed his sexual organ to D.S.
In short, because exposure was a lesser incldued offense of Count I,
the State prosecutor had to prove at least three different instances
of sexual abuse, with at least two indidents 30 or more days apart
(in order to avoid a double jepoardy violation).
4.

At trial, the State prosecuting attorney made no election

as to which alleged incidents the State was seeking a conviction
on for which counts

Moreover, both counts alleged "on or about"

dates, with both including September 12, 2013 (the last inciddnt),
and the Court's Charge authorized a conviotion for each count for
In incidentnpiiiidBititpr the (bne&ehtmaratsafititJbBtiniSiCibment.

107, 116.

Meaning,

1

CR 106-

the Jury could have relied on the same incideont

to convict Salazar in both Count 10 and Count II.
5.

At trial,

explain that D.S.

Salazar's counsel did^dhp&ng an unrealted objection^

"never specified in the forensic [interview] when

she saw [j^alazr's private part], she never said, just that she saw
[ialazar's private part]."

4 RR 10.

Thus, the State trial court

limited outcry testimony to exposuire incidednts that were "part
and parcel of these incidents that we are talking about", mainjly
the first incident.and the outcry testimony was so limited.

3 RR 209,

4 RR 9-1 0 .
6.

Viewing the evidence in the light most favorable to the

eventual gaiHiiytverdicts, the State appellatecourt, on direct appeal,
found sufficient evidence to support both counts.

For Count I,

the evidence was suuficient because "D.S. reffered to

other incidents

during the time period when she was in first and second ggrade,

Wcr

the summer, and a weekend, and occuring at trr-e mother's apartment
and one or both of [Salazar's] residences."

In essence, under the

standard " in favor of the verdict", the State appellate court considered
that the Jury resolved the inference that the "other incidents"
included "sexual abuse" as alleged in the indictment and not just
other conde4t like kissing, butt grabbing, or picture taking.

For

Count II, the evidence was sufficient because the "jury heard testimony
that the abuse occurred at [D.S. Mom's] homesand the two locations
where [Salazar] lived between 2011 and 2013..."

The State appellate

court did not disccibe the abuse, or incident, relied on to prove
exposure.

Dust as the Sjbate appelate court never described an alleged

incident that was solely exposure.

At the end of therday, the State

appellate court had no occassion to consider which specific alleged
incidents the Dury relied opon to convict Salazar for each count.
7.

Prior to jury selection proceeding^ or voir dire, Salazar's
A

lead trial counsel, Doe D. Gonzales, asked tfhe State trial judge,
"Dudge, how do you typically handle voir dire?", indicating that
trial counsels were unfamilar with how Dudge Rummel conducted voir
dire.

2 RR 3.

Numerous times trial counsels were concerned with

the time they had left to conduct their questioning of prospective
jurors.

2 RR 1 57, 1 70, 1 BO, 1B6.

Yet,

the S-tatfe jjmdla 1 judge assuredd

trial counsels that she was "not ttying to rush you or anything"
and that she did not "want to cut [defense counsel] off"; to the
extent that she offered to "call to get the air extended."
1 70 .

2 RR

Salazar's trial co-counsel, Christian Henricksen, refused

the oportunity to have additional time to question prosepctive jurors.

b

IMeverhteless , co-counsel speed up his questioning of prosepctive
jurors, because he was worried about the time left, and did nott
question each potential juror individually.

2 RR 1 BO.

In the end,

rather than accept the State trial court's offer of more time to
question prospective jurors, ag^copcounsel felt like he was "out
of time" and asked a "blanket question" about whether any o fifth e
potential jurors thought they "would not be aafaicrjuror on this
case, and haven't told us Sbhat yet..."

2 RR 186.

During voir dire prospectiverjurors number 13, 20, and

B.

22 (as well as 47 &60) all indicated that they could not be fairr
jurors for Salazar's trial,

2 RR 1 57, 1 86-1 B7 .

However, concerned

about non-existent time issues and inspite of those "red flags",
Salazar is trial counsels did nottfollow-up, ain any manner, with
tfttiberpnosecpteive jurors, including prospective juror number 12
who was actually bias as a matter of iiw — who ended up on Salaza's
Moreover, Salazar's trial counsels wasted two peremptory

Jury .

strikes on prosepctive jurors number 20 and 22 (and prospective
jurors numberr47 and 60 were past the jury strike cut off zone used
at trial,
9.

2 RR 207))
Salazr's lead trial counsel, Mr. Gonzales, began voir

dire for the defense and covered topics such as wrongful convictions,
the presumption of innocence, the right to reamin silent asjd the
State's burden of proof, cops protectiong children , w^s children
learn about sex, false outcrys, types of evidence, and the range
offpunishment.

2 RR 116-157.

Trial counsel concluded by asking

about biases against Salazar and whether if "because of something
that has happened in your family or close to you that has caused
you so much grief or angst that you can not be fair to Raul Salazar..."

Sixteen prosepective jurors raised their hands,

2 RR 157.

including

prospective juror number 20 and 22.
10.

Co-counsel, Mr. Henricksen, did the defense's individual

questioning of prospective jurors.

Yet, he still spoke of general

topics, such as the difference from when he mas a prosecutor and
now being a defense attorney and how that affected him in dealing
with sex offenses and false allegations,.2 RR 158-160.

Co-counsel

did get around to begining his individual questioning of prospective
jurors and got to No(s) 1,
about time.

2 RR 160-170.

2,

3, 4, and 5 before he strated to worry

The concern about time caused co-counsel

to "totally llose his] trian of thought" and he opened it back up
to general voir dire by asking if there was "anyone" who could not
hold the State prosecutor to their burden of ^ro-Pf.

2 RR 171-172.

Co-counsel tried to get back on track to asking individual questions
and (fat to prosepective juror Na(s). 6, 7, 8,

9,

and 10.

Once again,

worried about time, co-counsel asked generally if "there [was] anyone
else that has something that you think we should know that we don't
up to this point" and nine prospective jurors responded to that
inquiry .

2 RR 1 80-1 86 .

Meaning, at least 24 prospective jurors

within the jury strike cut off zone, including prospective jurors
number 13, 20, and 22, did not get individually questioned by defense
counsel.

Co-counsel finished by asking:

kind
"I'm pretty much out of time, but just to
If anyone that thinks that,
of blanket question here,
or OuroirNumber 30 or higher that
or Juror Number 20
thinks that you would not be a fair juror on this case
and you haven't told us that yet, please raise your card."
2 RR 186.
cou

To that question, 14 prospective jurors responded they

not be fair, including prospective juror number 13 and 20.

■$

v'.

1
\

gnibuXoni t ebnsrl ilariS basis! siciut aviSosqaeoiq nasSxiS

.V2f Rfl S

. SS bns OS -xedmun aoTuf, sviSosqaotq

.or

Isubivibni a ' eensSsb arts' bib , nasMoi!naH .!M , Xeenuoa-oO
f
Xaieneg
So aMoqs XXiSs art ,SaY

.aiosut aviSasqeoaq So gninoiSaaup

bns ToSuoaeoiq a eaia art nartui moiS aanaaaSSib arts as riaue , 80iqoS
gniXseb ni mirt baSaaSSs SariS uori bna yanloSSs sansSab s gniad won
Xaanuoa-oO

.03 T-Q2 f HR S a 9snoiSsgaIiB aaXaS bns eaenaSSo xee riSiw

eviSaqqeoaq So gninoiSasup Isublaibnl aid gninigad oS bnuoia Sag bib
yiiaw oS bsSeaSs art sioSad 2 bns ,£ ,£ «S ,f (a)oM oS Sog bna exoxub

.ovr-oar

iaanuoa-oo baeuaa amis Suoda nxsanoo artT

rr s

.amiS Suado

qu >fosd Si banaqo art bns "SrtguariS So neiiS . [ sir! seoll yXXsSoS" oS

'

Son bXuoa oriu "gnovne" esu aiarlS Si gni^as yd axib xiov XBiansg oS
.SVT-XVr flfl S

.SSoirf So nabiud liariS oS aoSuaseoiq aSsSS arts bXort

enoiSeeup Xaubivibni gniMae oS tfaaiS no. >fqed Sag oil baiiS Xaenuoa-o3
«flisgs aanO

.OX bna t 6• ,8 «t t3 . (a)ol/i !o!u[, av/iSosqaaoiq oS SoJI bna

onoyns [esu] siariS11 Si yXiaxanag ba^es Xaanuoa-oa ,smiS Suods baiiaou
....

'

.

, .

..

~ "

,

■

— :.r..

S’nob stii SsriS won>l bXuoria eu jlnirfS uoy SsriS gnirtSsmoe as# SsriS aaXa
SeriS oS 'bab.flqqeas ee®ou[, eviSoaqaoiq snin bns "Sniaq eiriS oS qu
e-ioxufc eviSoaqeoiq 4S SssaX S® t gninee>i:
'.

---

. 38 T-OS r HR S

. yiiupni- 7

esoipt aviSaeqeosq gnibuXani ,sno: SSo Sua asliiSa ysut arts nirtSiu
i

asnaSab yd baftaiSeeup yXlaubiviSni Sag Son bib , SS bns ,QS tfir tedmufi
: gni>1 as yd bsrtainiS Xaanuoa-oO

. lesnuoa

Hni>l -- oS Sent Sud , amis ScT Suo rioum ySSaxq m11 "
,SsriS e>1 nirtS SsriS enoyns SI Vasari noiSaaup SsMnsid So
SsriS narigiri xo OS sadmuMitSo^uC m
OS isdmuli lonuC "so
aeea eiriS no soaufi aisS• s a,d Son.bXuou uoy SsrtS a>!niriS
" . b 7 s a a uoy sdisa eassXq , Ssy SsriS ,eu . bX oS S * navsri uoy bns
-

"

yeriS babnoqeaa aaeaut aviSaeqeoaq

‘

■

/

-

t .noiSseup SsriS oT

.38 T RR S

.OS bns Ef asdmun .aoau[, sviSaBqeoaq 'gnibuXani taisS ad Son buoa
i
•s

f\

\
\

/■'

;;

^

During voir, dire, propsepective jurors number 5,

11 .

28, 29,

and 39 each indicated, in some manner, that they mould automatically
believe a class of witnesses, namely children.

2 RR 1 67-1 86,

203 .

bJheile at one point trial counsel got close to asking the right
questions calulited to bring out information which would have indicated
a propspective jUBOD5iinabilLtynt(i]limpartially judge the credibilty
of a class of witnesses, namely children; generally, trial counsels
appeared to mix that issue up with the State prosecutor’s burden
of proof and the presumption of innocence.
168-172, 184-186, 192-195, 203-204.

2 RR 167-168, cf.

2 RR

Prospective jurors number 5

and 29 ended on Salazar's Jury and trial counsels wasted two peremptory
strikes op prospective jurors number 28 and 39.
12.

During voir dire red flags were raised about many other

prospective jurors

ability to be fairsand impartial jurors who

could uphold their oaths and the law.

For instance, red flags were

raised when prospective juror No. 4 said his business affairs would
district his attention, when prospective juror No. 41

revealed his

step children had been abused, and when prospective juror No. 43
e xplained that she could not sit in judgment of others.
96-98 , 1 65-1 66.

2 RR 67-68,

As a result of trial counsels not asking more and

better questions of these prosepctive jruors, No . 4

who was distracted

by buisness affairs — ended up on Salazar's Jury and trial counsel
possibily wasted two peremtory strikes on No(s) 41
1 3.
22 , 28

and 43.

Based solely on prospective jurors No(s) 4, 5, 13,

20,

, and 43's responsedsduring voir dire -- without any additional

questioning — they were each challiBngable for cause:
cibl-d.
No. 4 - "not bol-0 to give [his] fair and impartial attention
to this trial" and "my mind would be on those problems that
I have over there versus sitting on a jury and actually paying
2 RR 68, 165-166, cf. 2 RR 166 (NOT
attention and listen"

9

rehabilitated by '/IF I would hear the evidence...").
No. 5- "I'm going to lean towardd [children witrtieses] no matter
what" and "YEAH" to "automatically going to believe the child
2 RR 167-168, cf. 2 RR 169 (NOT
just because it is a child."
rehabilatated by "I GUESS" to presumption of umnocenoe and
State's burden of proof).
No 1 3

"not fair juror on this case."

2 RR 186.

No . 20

"cannot be fair to Paul Salazar."

2 RR 157.

No . 22

"cannot be fair to Paul Salazar."

2 RR 157.

I don't
"I tend to beleive the child first and then
Ndg 28
think I would be fair", "[the defense] have the burden toi
I know that's
prove him innocent when it comes to a child.
not the law..." and "I would be looking more for you to prove
2 RR 184-185, 192-193, cf. 2 RR 194-195 (NOT
him innocent."
rehabilitated by either "I would thke all the evidence" or
"If [the State] don't prove it, yea, I will find him not guilty"
or "YES" to "follow that presumption [of innocence].").
"bias towards the State ... YES, I think I would see
No. 29
it to protect the child first."
2 RR 185, cf. 2 RR 194-195
(NOT rehabililatated by "It's hard for me to say" if "could
hold the State to their burden of proof.,.").
"not be fair juror
No . 39
going
to fjeel about
how I 1 m
rvS/~ or not it's true."
whet efl-s
rehabilitated by "I think I
would with any other person
or not.").

in this case" and "I don't know
the child speaking about what happen
2 RR 186, 203, cf. 2 RR 204 (NOT
can" too"mS@e a judgment like you
about whether they are being truthful

"cannot sit in judgment of another person..." and
No . 4 3
"I would not fell comfortable judging this man .. my conscious,
2 RR 67, 97-98.
it bothers me."
I
Sa 1 az*r's trial counsels had an obligation to challenge each of these
A

prospective jurors for cuase and they had not rasonabily legitimate
strategic exuse to not challenge each of them for cause,

After

all, trial counsels either agreed to exuse or chal/enged for cause
other prospective jurors who were similarly situa&ted and actually
attempted,ffor the wrong reasons, to chalenge No. 28 for cause .
Of these prosepctive jurors, No. 4, 5, 13,

and 29 were on Salazar's

Dury and trial counsels wasted permetory strikes onnthe others.

14,.

The

Jury returhed a verdict of guilty on both counts.

After a punishment hearing, the Jury returned a verdict* for 35
years (no parole) for Count I and 20 years and a $10,000 ffiine for
Count II.

The State trial court sentenced Salazar accordingly and

ordered the sentenced to be served consecutively.
1 5.

Salazar appaled his conviction.

The 4th District Court

of Appeals of Texas held that the evide&n’e mas sufficient to sustain
the convictions.

See, Salazar v.

State, No. 04-16-0074-CR (Tex.App.

San Antonio October 11, 201 7)(available at http://uuuj.txcourts.gov/
4thcoa/) .
1 6.

Salazar filed a State post-conviction application for

urit of habeas corpus.

In that initial-revieu collateral relief

proceeding, Salazar asserted,

in part, that his trial counsels and

trial co-counsel uere ineffective uhen they:
Failed to object on double jeopardy grounds to the conviction
and consecutive sentence for Count II, uhpsnthe State prosecutor
made no election at

trial as to ublisch alleged incidents supported

each count and there uas no testimony that Salazar exposed
himself to D.S. on an isolated incident uitoft no other form
of sexual abuse occurring at that time;

so that, each and every

allegeiliSrncident of exposure uas continuous, incident to, and
subsumed by

part of dhs-am-Sre impulse as

the allegations

of sexual abuse in Count I.
Failed to adequately investigate, or question, prospective
jurors further during voir dire, after multiple prospective*
jurors gave responses uhich raised "red flags" about uhether
they could be fair and impartial jrurors.
guror number 13, uho uas on Salazar J 4 Jury,

//

For instance,

prospective

indicated that

he would not be a fair juror in Salazar's case; yet, counsels
cJi
did not ask him any invidual follow-up questions, failing to
conduct the most rudimentary inquiry into his abilty to be
fairrand impartial.

Salazar asserted that the reason counsels

failed to conduct a constitutionally adequate investigation
into the prospective jurors

bias and prejudices against Salazar

was because of counsels incorrect understanding of the availbale
resopurces, or time to ask questions,
invesitgate, or question,

4h

availbihelto furhrter

prospective jurors; and,

that the

constitutionally inadequate investigation prevented counsels
from making trueli^y inf ormed,

reasonable, and legitimate tatical

choices of which prospective jurors to^ challenge for cause
and which ones to exercise peremptory strikes on.
Failed to request challneged for cause and make wise use
of all peremptory strikes against prospective jurors when there
was no legitimate tatical excuse to allow them to sit on the
juryr

For example, prospective juror 20 and 22, like prospective

juror No. 13,

indicated that they could not be fair to Salazar,

with no follow-up questions;yet, counsels exercised peremptory
strikes aginst them, when they were challengable for cause
as bias and prejudice against Salazart

Had counsels used challenges

for cause to remove those two, and other,

prospectiviggurors,

counsels would have had at least an additional two peremptory
strikes and been bale to remove other prospective jurors, like
No .

9, who became the jury foreperson, who had originally responded

that she could not be fair (buttwas rehabilitated) and then
quipped that she would be the "best" juror for Salazar's type
of case.

2 RR 157, 177-178.

1 07

In addition to asserting Strickland prejudice,due to the

additional peremptory strikes trial counsels mould have had
mere they not ineffective, Salazar asserted that prejudice
should be presumed.

EErors during voir dire are structural

erroBs, especially when an actually bias juror was on Salazar's
Sury; so that, the Dury was not an impartial adjudicator.

1 a.

Salazar's lead trial counsel, Doe D. Gonzales, who is

currently the elected District Attorney for Bexar County, Texas,
responded in a conclusory fashion that counsels "exrecised
challenges for cause against those venire members that indicated
that, for whatever reason,

they copJid not be fair# to Mr.

Salazar."

Further, that M[t]he list [of peremptory strikes] that was
submitted to the court was the result of trial strategy..."
Counsel did not explain any of the tatical decisions about
individually complained of prospective jurors nor address that
co-counsel often cut off individual questioning of prospective
jurors due to a perceived lack of time, when the State trial
judge, multiple times, offered additonal time to question prospective
j urois g

Counsel appeared to blame Salazar's particpation in

the process for

the decisions; yet,

counsel also pointed out

that Salazar "struggled" with the legal concepts about the
jury (de)selection process.
19.

19.

Trial co-counsel,

Christian Hanricksen, who is currently

an AssistannDistrrict Attorney for Bexar County,

Texas, while

admitting that he "d[id] not independently recall why we chose
to strike who we did, why we challened who we did for cause,
or the basis for the questions of individual panel memebers,"
yiieltfefcls§t3?i! to claim that all d.Briaas "were effective and

s4.‘lJ o( io l-C.

(A eel"

based on soilind strategy."

Co-counsel claimed that their so-called

strategic decisions were "informed not only by information app&bgnt
in the record, but also information such as juror information cards,
non-verbal cues from panel memebers and ansuers given by panel memebers
unidentified in the record."

Like lead counsel, co-counsel appeared

to blamBeSalazar's engagement in the i^oir dire prooess and failed
to either directly addraess the time to question prospective jurors
concern or detail any tatical decisons for individually complained c f
prospective jurors.
20.

For the double jeopardy claim, trial counsel responded

that Salazr "confused the legal principle of double jeopardy with
the State's right to proceed on an indictment alleging separate
find, co-counsel claimed that Salazar,:

offenses."

"attempt[ed] to reframe [a] sufficiency of the evidence
issue [raised on direct appeal] as a double jeopardy
However, the jury and the appellate court found
claim.
that the evidence presented by the State mas sufficient
to support separate allegations of abuse as alleged in
both counts offthe indictment."
That response appeared to folllow the response from appellate counsel
that there was no double jeopardy violation because the State appellate
court found the evidence sufficient for both counts due to D.S.'s
"use[]

[of^ the plural form of wording to express how many time[s] "

the alleged abuse happen.
21 .

The State habeas trial court explictly only reviewed tlyb

affidavits of trial counsel when concluding that counsels were not
ineffective.

See,

APPENDIX "B"

of Law, Conclusions#5.

Findings of Fact and Conclusions

Of course, the State habeas trial court

found that counsels affidavits were "truthful and credible" and
recommended that relief be denied.

Id. Conclusions #§,

Findings

# 5 & #8.

For the double jeopardy claim, the State habeas trial

court concluded that the Texas Legislature t-n-LTfyd that the exposure
count not be subsumed by the acts of sexual abuse alleged in Count I
and that "[a]s stated on appeal,

the court finds that [Salazar's]

conviction in Count II is supported by the record."
#3.

Id.

Finding

The State habeas trial court did not address the State prosecutor's

failure to make an election at trial nor dbtail any evidence from
trial of an allegediijncddent of exposure that was separate from
any other alleged acts of sexual abuse.

Then, for the jury selection

calimsybased on the presumption of sound trial strategy,

the State

habeas court determined that counsels were not ineffective.

Id.

Conclusion #5.

The State habeas trial court did not address the

presumption of

prejudice due to a bias juror being on the Dury

hQC detail (or resolve the factual conflicts) any of the responses
of individually complained of prospective jurors.
trial counsels'

For instance,

claimed to have challenged for cause all prosepective

jurors that indicated they could not be fair to Salazar and the trial
record revealed that, inspite of indicating that he could not be
a f-Lar juror in Salazar's case,

prosepctiaee juror number 13 was

on Salazarjs Jury.
22 .

The writ irrecord mas forwarded to the Texas Court of Criminal

Appeals ("TCCA"). . However, the writ record did not include the
exhibits attached to Salazar's State habeas writ application (such
as the ttrial rrecord) and other pleadings filed by the parties.
Yet, on Duly 23, 2020 the TCCA denied a motion to supplement the
writ record with those missing items.

See, Ex parte Salazar,

No . UR-90,899-02 (Tex . Crim.App. Duly 23, 2020)(NOTICE)(available
at http://www.txcourts.gov/cca/).

1 5

Neverhteless , supple rot na-1 clerk's

records were filed with the TCCA, which included most of those exhibits
and pleadings that were orignally missing.

See,

Ex parte Salazar,

No. UR-90,899-02 (Tex . Crim.App. August 6, 2020)(NOTICE)(available
at http://uJUJUJ.txcourts.gov/cca/), Ex parte Salazar, No. UR-90,899-02
(Tex.Crim.App. August 1 9 , 20 20 ) ( N 0TICE ) ( a v aldab le at h tt p ://ujujuj .
txcourts.gov/cca/) .
23 .

Salazr also

requested the TCCA to ORDER jrfhat the jury

strike list and jury information cards be made a part of the writ
Qy

record.

The TCCA denied both a motion to supplment the writ record

and motoin tppSTAY (pusuant to Tex. R. App.

Proc. 73.7) concerning

this mssing material evidence necessary to evaluate and prove Salazar's
ineffective assistanceoof counsel at trial claims.

See, Ex parte

Salazar , No . UR-90,899-02 (Tex . Crim . App.Duly 23, 2020)(NOTICE)(available
at http://www.txcourts.gov/cca).
24.

For instance, in the motion to STAY it was argued,:

"The point is that Salazar has the burden of proof
to present evidence in this habeas procednJngs demonstrating
he is entitled to relief, but no way to require production
As the U.S.
of that evidence without the court's help.
Supreme Court has recognized,:
"... while confined to prisoAn, the prisoner is
in no postion to develop the evidentiary basis for
a calim of ineffective assistance , oifiRiich often
turns on evidence outside the trial rrecord."
Indeed ,
Ryan, 132 S.Ct. 1309, 1317 (2012).
See , Martinez v._______
Due Process and Equal Proetection demand that, even in
post-comuiciton habeas proceedings, that prisoners be
able to gather the record necessary to litigste his or
How would Slazar be given a meaningful opportunity
her claims,
to be heard, as required by Due Process, if he has no
way to aquire the evidence necssary to meet his burden
Thus, Due PRocess should require
of |poof in this case?
that the convicting court insure the jury strike list,
jury cards, and additional detailed testimony of counsels
(cited omitted)
is made a part of the writ record."

A

25.

Likewise,

in the corresponding mandamus case to Salazar's

habeas writ application, the TCCA denied a motion to address procedural
due process concerns commpn in PRO SE cases.
bJR-90,089-01

See, In Re Salazar,

(TexdCrim. App. AUgust 21 , 2020) (NOTICE) (available a at

http://www. txcourts.gov/cca/) .
26.

In the TCCA Salazr OBJECTED to the State habeas trial

court's Findingd of Fact and Conlcusions of Law.Specifically,

in

Salazar's SUPPLEMENTAL OBJECTIONS Salazar OBJECTED that the State
habeas trial court "solely relied on and adopted facts from Salazar's
attorney's affidavits and wholly failed to refer to the record from
trial

[which was attached as an exhibit to Salazar's State habeas

writ application]."

Salazar explained how he could not meet his

burden without the court considering the t'frial record that was
<\f\

attached as n-a exhibt to the writ application.

For

examjble ,

the

trial record was necessary for the court to make a finding about
whether the evidence admitted at trial would support a separate
convicntion and sentence for both offenses because there was an
alleged inriideent of exposure separte and dinstinct from any other
alleged abuse.

Just like, the trial record was necessary to demonstrate

what questions were askedsof the individually complained of prospective
jurors and their responses.

Salazar cited to Trevino and that the

Supreme Court had determined that a post-conviction habeas writ
application in Texas was the first (and only) meganirvful opportunity
to raise an ineffecitve assistance of counsel at trial claim.

Thus ,

Siiigibr argued that the procedures followed should adhere to the
constitutional norm of fairness and due process that applies on
direct appeals.

Then, Salazar cited toe D.A. v. Osborne , 129 S.Ct.

23DB, 2320 (2009) and that a State's post-conviction relief procedures
must be adequate to vindicate the substantive rights provided.

REASONS FOR GRANTING THE PETITION

GROUND ONE:

DOES A STSIE'S INITIAL-REVIEW POST-CONVICTION
COLLATERAL PROCEDURES MEET CONSTITUTIONAL STANDARDS
WHEN THOSE PROCEDURES FAIL TO PROVIDE PRISONERS
THE OPPORTUNITY TO GATHER, PRESENT, AND CONSIDERATION
OF EVIDENCE IN SUPPORT OF AN INEFFECTIVE ASSISTANCE
OF COUNSEL AT TRIAL CLAIM, FOR WHICH THE INITIAL-REVIEW
COLLATERAL PROCEEDINGSWAS THE FIRST MENAINGFUL
OPPORTUNITY TO RAISE AN INEFFECTIVE ASSISTANCE OF
COUNSEL AT TRIAL CLAIM?

The whole p&ajiiit of this Court's decision in Trevino was that
Texas

i

direct review procedures did not provide prisoner's a "meaningul

opportunity" to litigate an ineffective assistance of counsel at
trial ("IACT") claim because there was not an adequate opportunity
to investigate the claim or to develop the record in support of
such a claimjaand,

"in Texas

i

a writ of habeas corpus

state collateral proceedings ordinarily

i

i

issued in

is essential to gathering

the facts necessary to ... evaluate ... ineffective-assistance-oftrial-counsel claims.
1 91 8-1 91 9 , 1 921

t n

See, Trevino v. Thaler, 133 S.Ct. 1 911 ,

( 201 8)(quoting Ex parte Torres, 943 S.W.2d 469, 475

( TesSsBrim . App .1 997) ( en banc ) ) ( brakets omitted).

Due to Texas' direct

review procedures not affording, as a systematic matter, meaningful
review of a claim of IACT, this Court found an exception to Coleman
and allowed a prisoner to overcome the failure to exhaust and a
procedural default for not raising a substantial claim of 16CT during
See, Martinez v. Ryan ,

"initial-review collateral proceedings."
132 S.Ct. 1 309, 1 31 5, 1 31 8 ( 201 2).

But, what about when a prisoner

does exhaust a claim of IACT using Texas

I

intial-review collateral

proceedings and those procedures did not provide the prisoner an
opportunity to gather facts in support of that claim, to expand
the record with that

the record with that sought after evidence, nor did the State habeas
(trial) court even consider the evidence that was submitted by the
prisoner?

The result is the same as that feared in Trevino and

Martinez :

the prisoner will have been "deprive {id]

... of any

[meaningful] review of that claim at all" by any court.

See,

[
Trevino,

133 S.Ct. at 191B (citing Martinez , 132 S.Ct. at 1316).
That is especially true because review by a Federal habeas
court would initially be limited to the State court record.
Sullen v. Pinholster, 131

See,

S.Ct. 1 31 B (2011).

SALAZAR'S REQUESTS FOR RELEVANT EVIDENCE (AND CONSIDERATION THEREOF)

In Salazar's case, there were motions filed during the initialreview collateral proceedings asking for the State habeas trial
court's help in gathering evidence in support of Salazar's IACT
calims.

For instance, the memorandum,of law filed with Salazar's

State habeas writ application explained that, in support of the
claim that trial counsel and trial co-counsel were ineffective during
voir dire, or jury selection,

Salazar had to ffimklae educated guesses

on which party [peremtory] struck which prospective jurors" because
he " d [ i d ] not have access to the jury strike list[*r|)tf tSadfedgpa mot
raofiomat.eqoestidg that the jury strike list and the juror information
cards be made a part of the writ record was filed with (and attached
to) Salazar's State habeas writ application.

However, the State

habeas trial court ignored that motion and all requests for a ruling
on that motion.
Thus, the writ record forwarded to the Texas Court of Criminal
Appeals ("TCCA") did not include the jury strike lists nor the juror
information cardes, which were vital to Salazar's S0CT claim.

Moreover, even the exhibits, including the trial record, that
were attached to Salazar's Stateehabeas writ application, were not
originally forwarded to the TCCfl.

In fact, the State habeas trial

court's Findings of Fact and Conclusions of Law, which were adopted
by the TCCfl, fiai’jfeed to even mentioibnthe trial record and felied
solely on the post-conviction affidavits of Salazar's counsels.
Therefore, it is evident that the State habeas trial court did not •
even consider the evidence from the trial record, which Salazar
was able to present,

that was vital to Salazar's IflCT claim.

For

example, the 5tate habeas trial court did not consider that the
State prosecutor never made an election at 4 "tr i a 1 as to which alleged
incidents the State was seeking a oonviction on for each count (or
that there was no evidence of an alleged incident of exposure that
was totally separate from any other alleged abuse).

Additionally,

the State habeas trial court did not consider the propsepctive jurors
responses during voir dire

(3

like prospective jucor number

who

responded that he could not be a tf'fair juror on Balaza's case .
Then, intially, the TCCA denied motions to supplement

the

record and to STAY the habeas proceeding in order for the missing
items to made a ppart of the record (including the attachments to
Salazarjs State habeas writ application)and additional, more detailed,
affidavits from trial counsels^.
(Tex.Grim.App. Duly 23,

See, Ex parte 5alazar,

No. UR-90,899-02

2020)(available at http://www.txcourts.gov/cca/).

4-ke
Nevertheless,
Salazar was abl© to get the writ record supplemented
with the trial record and other exhibits that were attached to his
State habeas writ application.

However, the TCCA never mpde any

attempts to have the jury strike list or jury information cards
made a part of the oritriSecord;

as well, as no additions affidavits

were ever order from Salazar's trial counsels.

i

^or

Salazr OBJECTED fc'fa the TCCA &o all of these failures of the
State habeas trial court and the TCCA in failing to provide procedures
for him to g<jather and expand the record with the missing items
which were veital to proving his IACT claims and the failures of
the State habeas trial court to even consider the exhibits Salazar
did present, like the trial record.

Those failure^made it pratically

impossible for Salazar to overcome the strong presumption that his
trial counsels

M I

yendeiied adequate assistance and made all signficant

decisions in the exercise of reasonable professional judgment.
See, Burt v.

i m

Titlow, 134 S.Ct. 10, 17 (2013)("it should go without

saying that the absence of evidence cannot overcome the

strong

presumption that counsel's conduct [fell] within the wide range
of reasonable professional assistance.

i ii

)(citeoomitted)) .

Afterall,

it was the trial record which demonstrated that there was no evidence
at trial of an alleged incident of exposure separate and distinct
from any ofhthe alleged acts of sexual abuse alleged in Count I;
so that, trial counsel was ineffective to not object to the conviction
and consequtive sentence in Count II.

And, the trial record demonstrated

that Salazar's trial counsels did NOT, as they claimed in their
affidavits,?"
"exerciseddchallenges for cause against those venire
members that indicated tbat, for whatever reason, they
Likewise, Mr. Henricksen
could not be fair to Mr. Salazar,
and I exercised our peremptory challenges to exclude those
individuals that expressed a belief that they could not
be fair."
See, APPENDIX "B" - Findings,-ATTACHMENT "I"
Counsel.

Affidavit of Tiral

Indeed, how coud a court review Salazar's claimsthat his

trial counsels were ineffective in their exercising o^ peremptory
strikes without the jury strike lists being made a part of the writ

record, in order to know which prospective jurors counsels did actually
strike?

Not to mention that trial counsels' post-convction affidavits

failed too address their "strategy" as to individually complained
of prospective jurors and failed to address the very specific times
when counsels did not follow-up with additional questions when a
prospective juror indicate^ they couald not be fair to Salazar (nor
the fact that counsel appeared to be worried about a lack of time
when the State trial judge offered additional time to question prospective
jurors) .
It is concerns like JHhese which caused the procedure provided
in Texas' initial-reivew collateral proceedings to npeivent a "meaningful
opportunity" to litigate IACT claims and violated DUE PROCESS.

]

GATHERING AND PRESENTING EVIDENCE NECESSARY PART OF PROCEDURE

This Court has had occassion to say that one of the "attributes
of any constitutionally adequate habeas corpus proceeding" is the
habeas court's "authority to admit and consider relevant exculpatory
evidence that was not introduced during the earlier proceedings"
See, Boumediene v. Bush,

553 U.S. 723, 779, 7B6 (2008).

Or,

in

the words of former Custice Brennan, to be an adequate corrective
process, State collateral review proceedings ^should provide for
full fact hearings to resolve dispp&ed facts, and for compilation
of a record..."

See, Case v .

(BRENNAN, 3., concurring).

Nebraska^,3B1

U.S.

336,

347 (

)

And, it is clearly established Federal

law , for at least a State's post-conviction pre-execution sanity
proceedings, that a basic requirment of dues' process and an opportunity
to be heard is the "opportunity to submit evidence and argument..."

See,

Panetti v .

Quarterman, 127 S.Ct. 2842, 2856 (2007)(quoting

Ford v. Wainwright, 477 U.5. 399, 427 (1 9 8 6) (POUELL, 0., concurring)).
Not to mention, until the AEDPA, 2B U.S.C. § 2254(d) used to explictly
require 8a full and fi-er hearing" in State court as a prerequiste
to a Federal habeas court's deference to State court fact findings.
And, while this Court has recognized that a comBtitu^iosnlly
sufficient investigation, or gathering of evidence, and ffhe ability
to expland t h e record are vital to a meaningful opportunity to
litigate an ineffective assistance of counsel at trial claim,

this

Court also recognized that,:
"Uhileeconfined to prison, the prisoner is in no
position to develop the evidentiary basis for a claim
of ineffective assistance, which often turns on evidence
outfcside the trial record."
Yet, when a prisoner chooses

See, Martinez, 132 S.Ct. at 1317.

to exhaust a claim of IACT during intial-review collateral proceedings
in State court, review by the Federal habeas court will be limited
to the State court record and the evidence the prisoner was able
to gather and expand the record with in State court.

See, Pinholster,

|21,S.Ct. at
Meaning, if the St&tee courts did

not provide prisoners with

a meaningful proceudres to gather and submit evidence supporting
an IACT calim during intial-review collateral proceedings, there
is a reajftdanger Is'that no court will ever perform any meanin^flill:
review of such a claim.

MORE LIMITED QUESTION THAN PRIOR CERTORARI15 GRANTED

Although

in

seA- times

pjreethb

it

is

waning,

it

remains

true

that,:

"Because the scape of the state's obligation to
provide collateral review is shrouded in so much uncertain
uncertainty, ... this Court rarely grants review at this
stage of the litigation even when the application for
state collateral relief is supported by arguably mertorious
federal constitutional claims."
See, Kyles v. Whitely, 498 U.S. 931, 932 (1 990) (SIEMENS,
in denial of application for stay).

Nevertheless,

3., concurring

at least twice

this Court has gratned certiorari to review what constitutes an
adequate corrective process for state collaterial review.
Casey.

See ,

Nebraska, 381 U.S. 336 (1 965), Woods v. Nierstheimer ,
Passage of the AEDPA, which barrs relitigation

328 U.S. 211, 217 (1946).

of Federal Constitutional claims priorly litigated in State collateral
review proceedings

and requiring exhaustion in State courts

a

unless the prisoner meets standdrd that is difficult to meet, because
r>
it was meant ot be difficult to m e &t, Harrington v, Richter , 562 U.S.
86, 102-103, 131

S.Ctr.770 (2012), only hieghtens the need for «

-ftiis Court to grant certiorari to address just what procedureal process
prisoners are due during intial-review State collateral proceedings.
As mentioned,

that is especiually true because the AEDPA limits

Federal habeas courts review to the State court refood.
Pinholster, 131

See ,

S.Ct. at

Most importantly, t$his Court has recognized,timplicltly if
not explictly, the importance of a meaningful opportunity for a
prisoner to litigate an IACT claim during intial-review collateral
proceedingsSee, Trevino, 133 S,Ct, at

, Martinez, 132 S.Ct.

at
While m=reqpq3 like Case and Woods embraced the broad questibnn
of adequate corrective processes ofr all State collateral review,
herein the question is limited to the constitutional adequate correl

corrective process for raising an IACT claimin a State's intial-

A

review collateral proceeding.
Moreover, the concern is NOT whether the Constitution requires
States to provide post-conviction remedy generally.

Rather,

" [e]ven

if a State need never provide a post convition means of challenging
the constitutionality of a conviction or sentence, if it ehooses
to do so,

the Due Process Clause might require that the chosen means

be full and fair."

See, Randy Hertz and Dames S. Liberman,

Federal

Habeas Corpus Pratice and Procedure, 2019 Edition § 7.1[bl (p. 403)
3
(Matthew Bender)(citing Swartout v. Cooke, 562 U.S. 21 6, 220 (201 1 ) ,
District Attorney's Office for the Thjird Judicial District v.
557 U.S.

52, 67, 69 (2009), Halbert v. Michigan,

Osborne,

545 U.S. 605, 610

(2005), Evitts v. Lucey, 469 U.S. 3B7, 393 (1989)).*

Then ,

just

like in Mattinez and Treviflop this Court in Coleman recognized that
this dame con ^itutional principle -- meaningful direct appellate
A

review procedures — might apply to State post-convicion procedures
whenever it was the case that "state collateral review is the first
place a prisoner can present a chajlenge to his concivtion" and
thus, whenever,
the prisoner's
501

"a state collateral proceeding may be considered"
ii i

one and only appeal.

U.S. 722, 755-756 (1 991 ).

! II

See, Coleman,v. Thompson,

Indeed, this Court hadsgranted prisoners

relief in similar circumstances when state collateral proceedings
uj<2,re
tt-e-B the first opportunity to raise the Constitutional violation.
See, i.e., Montgomery v. Louisiana, 136 S.Ct. 71B,
Johnson v. Mississippi, 486 U.S.
4B4 U.S. 211

729 (2016),

578 (19BB), Yates v.

(1 98 B) , Ford v. Llainwright, 477 U.S.

Aiken,

399 (1 986).

NO OTHER FEDERAL REMEDY

Also of import is that a § 2254 habeas federal petition does
4.
not provide an avenue for the Federal courts to resolve the consitutional
A

adequacy of State collateral review proceedings.
Florida ,

654 F. 3 d 1 266, 1 267-1 260 (1 1 th Cir.

See i.e, Valle v.

2011), iilocd v.

Lord,

648 F. 3d 1 29, 1 31 -1 32 (2nd Cir. 2011), Morris v. Cain, 106 F.3d 581,
585 n. 6 (5th Cir. 1999), Gibson v. Jackson,
1047 (5th Cir. 1978).

578 F.2d 1045, 1046-

Nor would a con^itutionaly deficient State
Z'

collateral review proceedditie overcome the AEDPA's bar to relitigation
of Federal constitutional claims.

See i.e., Sully vb Ayers, 725

F. 3d 1 057, 1 067 n. 4 (9th Cir. 201|), Ballinger v. Prelesnike,

7

709 F . 3 d 550, 562 ( 6th Cir. 2015), Black v. Workman, 682 F.3d 880,
(10th Cir. 2012),

aff'm after remand, 485 Fed.Appx 335 (10th

Cir.20112), Atkins v. Clark,

642 F.3d 47, 49 (1 st Cir.2011).

All

meaning that certorari review by this Court, after the inital-review
collateral proceedings, is the only opportunity for Federal review
of the constitutional adequacy of those State courts procedures.

SALAZAR'S REQUESTS WERE IGNORED

Here is the bottom line.

Salazar's State habeas writ application

asserted that his trial counsel and trial co-counsel were ineffective
when counsels failed to ask prospective jurors additional questions
when specific prospective jurors indicated that they had a bias
or prejudice and would be unfair towards Balazar.

For instance ,

13
when propsepctiosajuror namber -2J0 indicated that "[could ^not be
ff j§ to Paul Salazar even before this case starts [' , I " Salazar ' s

trial counsels made

further inquiry whatsoever into why, or the

extent of, that prospective jurors bias and prejudice against Salazar's
case.

Salazar's writ

application also asserted that his trisSi

counsels were ineffective in their use of permetory strikes and
challenges for cause.

Indeed, without a constitutionally
sufficent
A

investigation, or proper questioning of prospective jurors,

Salazar's

trial counsels could not make truely strategic deicions of which
pBQpsepctive jurors to challenge for cause and which to exercise
peremtory strikes against.

Salazar explained in detail

more 4b

than ten prospective jurors that trial counsels should have questioned
further, nine prospective jurors that trial counsel should have
challenged for cause, and at least three prospective jurors that
trial counsel should exercised permetory strikes for (had they had
addiirtonal strikes).

In doing so, Salazar had to assue, or make

educated jjuseses, about which prospective jurors trial counsels
did actually exercise peremtory strike on (as Salazar did not have
access to the jury strike lists).
Salazar's lead trial counsel simply respnded that counsels " were
A
able to cover general principles of law" "within the time allotted
by the [State trial] court" and,:
"exercised challenges for cause against those venire
members that indicated that, for whatever reason, they
could not be fair to Mr. Salazar,
Likewise, [we] exercised
our peremtory istriktees] to excuse those individuals that
expressed a belief that they could not be fair."
See,

APPENDIX "B"

Fidings, ATTACHMENT "I":

In the same vain,

Salazr's trial co-counsel responded that they "obtained significant
information from jbheepjaael" (including "tone, body language,

and

other non-verbal ques") and that,:
1-i-rrrl t" frbi d s^e-d—ETh

[ hrsi—kn-&w 1 e riga—o-F—E“ttTB

T-rtmmnn prnr-tinr »

" -£ B fi a s e d on [his] knowledge of [their] common practice,
limited memory of voir dire in this case and a review
oftfthe ^record, the decisions that we made in this case
dealing with questioning of panel members, challenges
for cause,aad peremptory strikes were effective and based
on sound strategy."
See, APPENDIX "B"

Findings,

ATTACHMENT "II".

At least trial co-

counsel admitted that he " d[id] not independently recall why we
choose to strike who we did, why we challenged who we did for cause,
or the basis for questioning of individual panel memebers."

Id .

Yet, co-counsel also pointed out that Salazar's trial counsels relied
on the information from the "juror information cards" when making
their strategic decisions concerning jury selection.
Thus , neither of Salazarjs trial counsels offered an explanation
for failing to further question specificacomplained of prospective
jurors when those prosSfictive jurors indicated that they had a bias
or prejudeice aginst Salazar or relevant legal principles.

In fact,

the trial record demonstrfates that trial counsel was incorrect
in his belief that all venire members who indicated they could not
be fair to Salazar were either challenged for cause of peremtory
struck.

Neither did either counsel address the fact that atf h e trial

record revealed they cutt-off a ddft’bnal questioning of prospective
A

jurors because they were concerned about the time they had, when
the State trial judge had explictly offered counsels additional
time to question prospective jurors.

Moreover,

as mentioned, the

trial record demonstrates other specific juicers whoihbd some bias
or prejudice against Salazar's case and either trial counselfs exercised
peremtory strikes against them instead of challenges for cause,
or counsels left them on the Bury (inclduing the Bury foreperson).
The point is that, in order to meet his burden of proving that
his trial counsel were ineffective,

VI

S a1a zt,

at the least, needed

the State habeas trial court to consider the trial record, which
was an exhibit to Salazar's State habeas writ application.

Yet,

the State habeas trial courts Findings, adopted by the TCCA, explictly
solely rejpliefl apon the post-conviction affidavits of

Salazar's

trial counsels in concluding that counseles were not ineffective.
See, APPENDIX "B"

Findings#5.

Likewise,

Salazar needed to have
A

the juror strike list and juror information cards made a part of
the writ record in order tooshed more lidjht on the information trial
counsels used to mbke decisions during voir dire and exactly what
those decisionswwere .

Yet, the Stite habeas trial1court

and the

TCCA refused to either supplement the writ record with those items
or to order the State habeas trial court to help Salazar gather
Then, niether

t|hose items and make them parttof the writ record,

the TCCA or the State habeas tria/dcourt would require trial counsels
to file addtional affidaivts addressing thediirfailure to ask further
questions (and time concerns) and what tatical rieassniffin&he had for
leaving specific indvidually complained of prospective jurors on
the Dury .
In like manner, the State habeas trial court failed to consider
the trial!record for the double jeopardy claim, which Salazar asserted
his trial counsels were ineffective to not object to.
the Findings, which werfe a adapted by fc-f’ h e TCCA,

In making

the State habeas

trial court solely considered the opinion of the State appellate
court ifnorn the direct appeal.

See ,APPENDIX "B"

Etbndlugifin #3.

However, the State appellate court was fallowing a different standard
o^ viewing the evidencde in the light most favorable to the verdict
that is not directly applicable to the double jeopardy claim,

It

was the ttrial record which would have demonstrated both that (1)

there was no evidence offered at trial of an alleged incident of
exposure that was separate from the allegations of sexual abuse
in Count I, and (2) tbbt because the 5tate prosecutor did not make
an election as to which conduct the State was relying for a conviciton

-j-haf

on each count, 4e+rlt it was impossible to determine what specific
indidents the Jury relied upon to conviction Salazar in Count I
and that the Jury did not ceibyidarthe same incident to convict Salazar
in Count II.

Therefore, when the State court failed to consider

the exhibits Sftalazar was able to present, the court prevented Salazar
fropm proving his IACT claim.
Salazar specifically comaplained th’at these actions prevented
him foam meeting his burden of proof, under Strickalnd,
review collateral proceedings.

In his motion to STAY,
fWeAWfe

Pro teoLur*,

in the ioibialfiled pursuant
Q

to Rule 73.7 of the Texas Rules of ■QjJidonB-e-y^ Salazar pinted to the
decisions of this Court in TfievinoS and Martinez; and, he aijjjagd
that "because this 11.D7 habeas writ application was Salazar's first
and only opportunity to raise these grounds, therprocedures followed
should adhere to the constitutional norm of fairness and due procees
that apply on direct appeal.

(citing BColeman).

Then Salazar asked,:

"How would Salazar be given a meaningful opportunity
to be heard, as required by Due Process, if he has no
way to aquire the evidence necessary to meet his burden
of proof in this cease?"
Finally,

Salazar cited the 5th Circuit's decision in Virgil v. Dretke,

446 F.3d 59B, 609 (5th Cir. 2006).which faulted trial counsel and
the “ft exas courts for not responding with a s-p^eificlr tatical reason
for keepingga prospective juror on the Oury who stated daring voir
dire that they could not be fairsand impati^il

The TCCA explcitly

denied those DUE PROCESS concernsrraised in the motion to STAY (and

motion to supplement the writ record) and implictly denied Salazar's
OBJECTIONS (supplemental) when thetTCCA denied Salazar's State habeas
writ application.

DUE PROCESS APPLIES

It is well-established that,
" [ uj ] h e n a State opts to act in a field where its
action has significant disreetionary elements [like proving
providing appeals, whertnit does so] it must nonetheless
act in accord with the dictates of the Constitution —
and, in particular, act in accord with the Due Process
Clause."
See, Evitts v. Lucey, 469 U.S.

3 B 7 , 401

447 U.S. 343, 346 (1 979), Welch v, Beto,
Cir.1 966).

(19 B 5 ) , Hicks v.Oklahoma,
355 F . 2 d 1 01 6, 1 020 (5th

This Court has implictly acknowledged that the principles

underlying the decison in Evitts should apply to initial-review
collateral proceedings, which is the first place a prisoner can present
A

a specific challenge to his or her conviction, because it is similar
topa prisoner's "one and only appeal."
756 .

See , Coleman,

501

U.S. at

Indeed, this Court had acknowledged that, :
"the question is whether consideration of [the
, '
prisonsEfs] claim within the framework of the g&t-t-e i>s
procedures for post conviction releif offends some princple
of justice so rooted in the traditions and conscience
of our peopii as to be ranked as fundamental or transgresses
any recognized principle of fundamental fairness in operation,
federal courts may upset a S
p o s t conviction relief
procedure only if they are fundamentaly inadequate to
vindicate the substive rights provided."

See, Osborne, 129 S.Ct. at 2319-2320 (citing Medina v. California,
505 U.S5.437, 446, 44B (1992)(quotes omitted)).

And,

in Ford

Justice Powell -- who's opinion is clearly established Federal law,
Panetti v, Quarterman, 127 S.Ct. 2B42, 2856 (200&)

~b\

citing to

Mathews v.

Eldridge, 424 U.55.319 (1976),

determined that pursuant

to due process, and an opportunity to be heard, applicable to State
collateral review proceedings (in death penalty cases), basic fairness
demanded the ability of the court to receive and consider evidence
submitted by the prisoner.
424 (1 986) (POWELL,

See,

Ford v. Wainwright,

3., concurring).

477 U.S. 399,

As a forti, the prisoner must

have a meaningul opportunity to gather that evidence.
Whether under Mddaina ar Mathews,

the ability of a prisoner

to gather evidence in support of an IACT calim during intial-review
collateral proceedings is a fundamental requistie of due process
necessary to vindicate one's bedrock right to counsel.
as much held this in Martinez and Trevino.

This Court

In Martinez this Court

determined that,:
"Claims ofdineffective assistance at trial often
require investigative work and an understanding of trial
strategy.
While confined to prison, the prisoner is dim no
position to develop the evidentiary basis for a claim
of ineffective assistance, which often turns on evidence
outside the trial record.
Ineffective-assistance claims often depend on evidence
Direct appeals, without
outside the trial record,
evidentiary hearings, may not be as effective as other
proceedinggsfor developing the factual basis, for the claim."
See, Martinez, 132 S . Ct. at 1 31 7-1 31 8 .

Once again, this was the

very reason that Texas' direct review procedures, as a systemic
matter, failed to afford a meaningful opportunity for review of
a IACT claim.

See, Treviono, 133 S.Ct. at 1918-1919.

The point

is thkt this Court has held that,:
adequateaassistance of counsel
"The right involved
In
is similarly and critically important.
at trial
both instances pratical consideration, such as the need
for a new lawyer, the need to expand the trial court record,
and the need for sufficient time to develop the claim,
? intial consideration of the claim during
argue strongly
collateral, rather than direct, review."

Id . at 1 921 .

This case simply asks the next question, what if the

State's initial-review collareal relief procedures do not allow
prisoners constitutioanlly adequate procedures to develop the record
and meet their burden in pleading and pvercoming the strong presumption
that counsel was effective?

CONCLUSION - NO PERFECT VECHICLE

This is not an isolated incident innthe breakdown of Texas
initial-review collateral relief proceedings.
Morgan . No.
-----------A

—

(U.S.

S.Ct.

See i..e,

Cody Ooseph

)(TCCA No. Ur-89,438-01 ) ,

Morgenstern v. Texas, No . 17-5892 (U.S. S.Ct. duly 11, 2017(filed),
Reed v. Texas, No . 17-5047 (U.S. S.Ct. Oct. 2, 2017), Crespin v.
Texas , 136 S.Ct. 359 (U.S. S.Ct. Oct. 19,
Emprey, 757 S.U.2d 771,

776 (Tex.Crim . App .

2015);

See also, Ex parte
)(TEAGUE, 0., dissenting).

Moreover the disinguished scholars Professors Randy Hertz and Oames
S. Liebman have advocated for* this Court to resolve this type of
issue :
"Various provisions of the [AEDPA] ... limit the
scope of [federal] habeas review and relief basedaon an
assumption that State postconviction proceedings afforded
the prisoner a full and fair remedy for violations of
federal law that occurred at the prisoner's criminal trial.
If that assumption is wrong, AEDPA's limitations on habeas
corpus review may effectively deny the prisoner ANY meaningful
This state of
state OR federal postcondition remedy.
affairs makes it crucial that prisoner denied full and
fair review in state postconviction proceedings consider
arguing that point as a separate ground for United States
Supreme Court review on CERTIORARI of the state court
proceedings. Although the Supreme Court has repeatedly
acknowledged that the question whether inadequate state
postconviction procedures violate the Constitution's Due
Process, Equal Protection, and Suspension Claus,is a
substantial issue worthy of the Court's certiorari review
the Court has consistently declined to address the question
jTdue to vechicle problems]... The real possibility that
AEDPA has removed ... the longstanding federal habeas

corpus backstop for deficient state postconuiction proceedings
both increases the imp|ortand:e of Supreme Court review
of th[is] question ... and undermines the Supreme Court
previously asserted reason for pretermitting the question.
Doubts about the existence of a federal habeas corpus
or other lower federal court forum for litigating the
constitutionality of state postconviction proceedings
enhance the importance of Supreme Court review on CERTIORARI
following state postconvibtion proceedings.
See, Randy Hertz and ZJameas S. Liebman, Federal habeas Corpus Pratice
and Procedure,

2G)19hEdition §

(Matthew Bender)(p.

396-397 n.47).

3

The very nature of this question, both deficient State proceedings
and PRO SE litigation, means there will likely never be a perfect
case as a vehicle to decide this important question.

The question

will almost always arise when there is a summary denial by the State
court, meaning there will be questions about the reason dfor the
denial.

IflbD^over,

PRO SE advocacy will never be perfect; but, hopefully

it has been sufficient in this case to squarely present the issues
and toegive the TC0S and opportunity to address the issues.
Salazar

3.

asks

this

Court toigrant

Therfore,

review herein.

Much offtffhe contents ojBfthis petition are from the reasoning provided by
Professors Hertz and Liebam.

GRBOND TWO:

OJAS SALAZAR'S TRIAL COUNSELS INEFFECTIVE DURING VOIR
DIRE AND IN FAILING TO OBOECT TO THE CONVICTION AND
SENTENCE FOR COUNT II ON DUBLE OEOPARBM GROUNDS; AND,
SHOULD THIS COURT'S DECISIONS RELATED TO TRIAL COUNSEL'S
DUTY TO INVESTIGATE (I.S. WIGGINS) APPLY TO COUNSEL'S
FAILURE TO SUFFICIENTLY QUESTION PROSPECTIVE OURORS
DURING VOIR DIRE?

Maybe the problem is that the TCCA, and the State habeas trial
court, put so much emphasis on trial counsels' affidavits that the
review under Strickland became more subjective
state of mind

about trial counsels

rather than an objective evaluation of what a reasonably

professional attorney mould have done in the circums’jz&aces .
i.e., Harrington v. Richter, 131

S.Ct. 770, 790 (2011);

Williams v. Taylor, 529 U.S. 362, 410 (2000)(0'C0NN0R,
Court) (" 'should

not

transform

the

inquiry

[under

§

See

See also,
0.,

for the

2254(d)(1)]

into

a subjective one by resting its determination instead on the simple
fact that at least one of the Nation&s jurists has applied the relevant
federal lam in the same manner the state court did...").

For, any

objectively reasonable attorney in the shoes of Salazar's trial
counsels mould have been aware of his or her duty established by
the 4th District Court of Appeals of Texas, With jurisdiction over
Bexar County, Texas mhere Salazar mas prosecuted.

In Walker v.

State, D95 S.W.3d 250 (Tex.App. - San Ant(4n'b 2006) the court addressed
a situation similar to Salazar's case,:
"The prospective jurors mere [I never asked if they
could be fair and impartial in the case or mhether they
could make a decision based solely upomnthe evidence
And ttrial counsel]-^did not even attempt to
presented.
Instead,
strike any of the prospective jurors for cause,
he used tmo of his peremtory strikes on [ tiaopprospective
jurors mho expressed bias in favor of lam enforncement.]
According, [three other prospective jurors mho expressed
bias in favor of lam enforcement], all became jurors."
Id. at 257.

Thus, the 4th District Court of Appeals of Texas held

when information is elicted during ooir dire indicating a pofciratial
prejudice of bias,:
"to adequately represent [the accussed] and protect
his constitutional right to an impartial jury, [trial
counsel] had a duty to further question the prospective
jurors to discover if there was actual bias that could
form the basis of a challenge for cause and to itelligently
exercise [] peremtory challenges."
Id. at 257.

Therefore, the court held that trial counsel's "failure

to ask any questions fell well beliflnawan objective standard of
reasonableness."

So, the TCCA's and State habeas court's focus

□ n trial counsel's claimed state of mind, as arfevealed by their
affidaivts, overlooked their objective duty established by Walker .
See i.e., State v. Morales, 253 S.W3d 6B6, 696 (Tex.Crim.App. 2008)
(determing,bbased on a silent record, that trial counsel could have
have a strategic reason to leave a bias jurof on the Oury rather
than avaluating the objective duty of reasonable professional counsel
in the same situation)).
Additionally, the 5th Cirucit U.S. Court of Appeals has held,:
"[the prospective jurors'] unchallenged statements
during voir dire that they could not be 'fair and impartial
obligated Virgil's counsel to use a peremptory or forNot doing so was deficient
cause challenge on these jurors,
performance under Strickland."
See, Virgil v. Dretke, 446 F.3d 598, 610 (5th Cir.

2006).

Then ,

counsel/ affidavit in Virgil, like Salazarjs ftriat|counse1s '

affidaivits,

stated that he asked all necessary questions and struck all prospective
jurors that expressed some type of prejudice or bias.

Id . at 610.

Yet, in Virgil, like Salazar's trial counsel, counsel did not explain
why the complained of prospective jurors answers did not indicate
a bias or prejudice nor give any explanation fir keeping them on
the jury.
Id.
Under Strickland's objectiviestandard Salazar's
t
trial counsel's werie ineffective.

However, as far as Salazar is aware, this Court has never addressed
a case applying Strrickland to voir dire complaints.

For instance,

this Court has never indicated whether the legal theory of a consitutionally
adequate investigation (i.e. Wiggins v.
523 ,

Smith ,

539 U.S. 51 0,

522-

(2003)(the "principal concern i^deciding whether [trial

counsel] exercised 'reasonable professional judgemnt'

is not whether

counsel wljould have ^ficlliboiwe'd the complained of strategy].

Rather

we focus on whether the investigation supporting counsel's decison
not Haptfollow the complained of strategy] was itself reasonable"
and "counsel chose to abandon their investigation at an unreasonable
juncture, ‘amking a fully informed decison with respect to

[the complained

of strategy] impossible.") would apply to trial counsel's questioning
of prospective jurors.

And, Salazar explictly asked the TCCA to

apply these constitutionally adequate investigation principles to
his IACT claim.
□ne thing for sure, this Court has determined that "... part
of the guarntee of a defendant's right to an impartial jury is an
adequate voir dire to identify unqualified jurors."
Illinois, 112 S.Ct. 2222, 2230 (1992).

See, Morgan v.

Salalzar's tria/i. counsels f

failed to insure that Salazar was affordeed adequate voir dire.

And ,

this Court has ackownledged that,:
"as with any other trial situation where an adversary
wished to exclude a juror because of bias, then,.it is
the adversary seeking exclusion who must demonstrate,
through questioning, that the potential juror lacks
impartiality."
Id. at 2232 (quote omitted).

Salazar akks this Court to address

how Strickland applies to trial counsel'?sconduct during voir dire
which "plays a criticil function in assuring the criminal defendant
that his constitutional right to an impartial jury will be honored."
Id. at 2230.

Salazar's State habeas writ application also asserted that
trial counsels were ineffective to not object on double jeopardy
grounds to his convcion and sentence in Countr II.

So ,

thq question

is what would have happen had trial counsel^ objected on double
jeopardy grounds?

kJhat if trial counsel had pointed out the State

trial court that the State prosecutor had failed to make an election
as to which conduct the State was seeking a conviciton din for each
count and, thus? it was impossible to determine what conduct the
Jury relied on to convict Salazar of COpunt I;nsd that,

it was

passible the Jury relief^ on the same conduct, or alleged incidtent,
to convict Salazar of both counts becuase there was no evidence
that there was ever an exposure only ddring any incident separate
from all the other alleged incidents (necessary for a conviction
in Count I)?

Any reasonablily professional attorney in the shoes

of Salalzar's trial counsels (who objected that the complain^Stant
never described a separate incident of exposure) would have been
aware of two lines of Texas
1 )

double jeopardy cases:

Aekins v. State, 447 S.td.3d 270 ,

275 ( Te x . Cr im . App . 2 01 4 )

which applied this Cdurt's double jeopardy cases (i.e. Blockbuster)
to explain a double jeopardy violation when there is a sihgle
impulse, or under the merger doctrine,

and the lesserQincluded

concduct is "subsumed" by the greater condaat (like exposure
being subsumed by the act of penetration), and
2)

Ex parte Pruitt, 233 S.U.3d 338, 346-34B (Tex.Crim . App. 2007)

which held that it was "impossible to determine with any certainty
which specific indcidents the jury actually aquitted appellant
of in the prior triil" when the State prosecutor failed to
make a proper election as to which conduct the State was seeking
a conviction for.

See i 5 e r.!, Guzman v.

State , 591

S.UJ.3d 71 3,

732-733 (Tex.Afip. - Houstohn

[1st Dist] 2D1 9) (considering argueH*4Hn that exposure was a lesserincluded of continuous sexual abuse only if evidence of a separate
State ,

incident of solely exposure), Villareal v.

590 S,ld.3d 705 ,

79 (Tex.App. - lilaco 201 9)(arguing that continuous sexual abuse invites
double jeopardy violation);

See also , Aekins ,

447 5.Id. 3d at 277-

<T
27B ("a line cases" established that the P«a-s Legislature's intent
was to punish only once for all conduct within one complete act
of sexual assault).
The State court's focus on sufficient evidence to sustain the
conviction in Cflunt II, based on viewing the evidence in the light
most favorable to the verdict, overlooked the reasonable proababilty
of a different result had trial counsels painted out that the State
prosecutor made no election; so that, it was impossible to tell
what alleged incidents the Oury relied upbnnto convict Salazar in
Count I and whether the Bury relied on the same alleged incident
to convict Salazar in Count II.
Importantly, because trial counsels

affidavits reveal their

failure to object to the double jeopardy violation was based on
their failure to recognize the cons^itutional violation, they did
not have a truely legitimate strategic excuse not to object.

Indeed,

there could be no true legitimate strategic excuse to alloffl Salazar
to be punished with an additional consecutive 20 year sentence in
O

vilation of double jeopardy.
A
This concern is intertwined with GROUND ONE and the State habeas
trial court's failure to consider the trial record, attached as
andexhibit to Salazar's State habeas writ application#, when making
the Findings of

Fact,ai2hich were adopted by the TCCA.

Salazar asks this Court to grant review in this case.

As such,

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

1

